<html>
<title> - CHALLENGES TO SAFELY REOPENING K-12 SCHOOLS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                          CHALLENGES TO SAFELY
                         REOPENING K-12 SCHOOLS

=======================================================================

                                HEARING

                               BEFORE THE

             SELECT SUBCOMMITTEE ON THE CORONAVIRUS CRISIS

                                 OF THE

                   COMMITTEE ON OVERSIGHT AND REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             AUGUST 6, 2020

                               __________

                           Serial No. 116-112

                               __________

      Printed for the use of the Committee on Oversight and Reform
      
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]      


                       Available on: govinfo.gov,
                         oversight.house.gov or
                             docs.house.gov
                             
                             
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
41-937 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------


                             
                   COMMITTEE ON OVERSIGHT AND REFORM

                CAROLYN B. MALONEY, New York, Chairwoman

Eleanor Holmes Norton, District of   James Comer, Kentucky, Ranking 
    Columbia                             Minority Member
Wm. Lacy Clay, Missouri              Jim Jordan, Ohio
Jim                                  Paul A. Gosar, Arizona
Stephen F. Lynch, Massachusetts      Virginia Foxx, North Carolina
Cooper, Tennessee                    Thomas Massie, Kentucky
Gerald E. Connolly, Virginia         Jody B. Hice, Georgia
Raja Krishnamoorthi, Illinois        Glenn Grothman, Wisconsin
Jamie Raskin, Maryland               Gary Palmer, Alabama
Harley Rouda, California             Michael Cloud, Texas
Ro Khanna, California                Bob Gibbs, Ohio
Kweisi Mfume, Maryland               Clay Higgins, Louisiana
Debbie Wasserman Schultz, Florida    Ralph Norman, South Carolina
John P. Sarbanes, Maryland           Chip Roy, Texas
Peter Welch, Vermont                 Carol D. Miller, West Virginia
Jackie Speier, California            Mark E. Green, Tennessee
Robin L. Kelly, Illinois             Kelly Armstrong, North Dakota
Mark DeSaulnier, California          W. Gregory Steube, Florida
Brenda L. Lawrence, Michigan         Fred Keller, Pennsylvania
Stacey E. Plaskett, Virgin Islands
Jimmy Gomez, California
Alexandria Ocasio-Cortez, New York
Ayanna Pressley, Massachusetts
Rashida Tlaib, Michigan
Katie Porter, California

                     David Hickton, Staff Director
                      Russ Annello, Chief Counsel
                    Funmi Olorunnipa, Chief Counsel
                         Senam Okpattah, Clerk

                      Contact Number: 202-225-5051

               Christopher Hixon, Minority Staff Director
                                 ------                                

             Select Subcommittee On The Coronavirus Crisis

               James E. Clyburn, South Carolina, Chairman
Maxine Waters, California            Steve Scalise, Louisiana, Ranking 
Carolyn B. Maloney, New York             Minority Member
Nydia M. Velazquez, New York         Jim Jordan, Ohio
Bill Foster, Illinois                Blaine Luetkemeyer, Missouri
Jamie Raskin, Maryland               Jackie Walorski, Indiana
Andy Kim, New Jersey                 Mark E. Green , Tennessee
                        
                        
                        C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on August 6, 2020...................................     1

                               Witnesses

The Honorable Arne Duncan, Managing Partner, Emerson Collective, 
  Former Secretary of Education (2009-2015)
Oral Statement...................................................     8
Dr. Caitlin Rivers, Senior Scholar, Johns Hopkins Center for 
  Health Security, Assistant Professor, Department of 
  Environmental Health and Engineering, Johns Hopkins Bloomberg 
  School of Public Health
Oral Statement...................................................    10
Robert W. Runcie, Superintendent, Broward County Public Schools
Oral Statement...................................................    12
Angela Skillings, Teacher, Hayden Winkelman Unified School 
  District
Oral Statement...................................................    14
Dan Lips, Fellow, Foundation for Research on Equal Opportunity
Oral Statement...................................................    16

Written opening statements and the written statements of the 
  witnesses are available on the U.S. House of Representatives 
  Document Repository at: docs.house.gov.

                           Index of Documents

                              ----------                              

Documents entered into the record during this hearing and 
  Questions for the Record (QFR's) are available at: 
  docs.house.gov.

  * Unanimous Consent: NEA Letter of Support; submitted by Rep. 
  Raskin.

  * Unanimous Consent: Reopening School Buildings; submitted by 
  Committee Chairwoman Maloney.


 
                          CHALLENGES TO SAFELY
                         REOPENING K-12 SCHOOLS

                              ----------                              


                        Thursday, August 6, 2020

                   House of Representatives
      Select Subcommittee on the Coronavirus Crisis
                          Committee on Oversight and Reform
                                                   Washington, D.C.

    The subcommittee met, pursuant to notice, at 2:09 p.m., via 
WebEx, Hon. James E. Clyburn (chairman of the subcommittee) 
presiding.
    Present: Representatives Clyburn, Waters, Maloney, Foster, 
Raskin, Kim, Scalise, Luetkemeyer, and Green.
    Chairman Clyburn. Good afternoon. The committee will come 
to order.
    Without objection, the chair is authorized to declare a 
recess of the committee at any time. I now recognize myself for 
an opening statement.
    On July 11, President Trump tweeted, and I quote, ``the 
Dems think it would be bad for them politically if schools open 
before the November election, but it's important for children 
and families.'' He ended with a threat; may cut off funding if 
not open.
    And just yesterday he said, and I quote, ``my view is that 
schools should open. This thing is going away. It will go away 
like things go away, and my view is that schools should be 
open.''
    The President views the decision about how to reopen 
schools as a political dispute about his own reelection, and to 
paraphrase his press secretary, he is refusing to let science 
stand in the way. I fundamentally disagree with that approach. 
Schools must reopen based on science and the safety of our 
children and teachers, not politics and wishful thinking.
    I do agree with the President that schools are critically 
important for children and their families. My first job after I 
graduated from college was as a high school history teacher. My 
wife was a school librarian. At this time of year, I remember 
the anticipation at the start of school would come into focus. 
Two of my grandchildren are school age, and I know they are 
feeling that anticipation now.
    In May, the Select Subcommittee focused on how to reopen 
safely through testing, tracing, and targeted containment. I 
hoped that the administration would implement these measures 
and that schools could safely reopen in the fall fully in 
person. Unfortunately, this is not possible in much of the 
country.
    Last Friday, Dr. Fauci told us the virus is still raging 
across the United States because unlike Europe, we didn't shut 
down sufficiently in the first place. We cannot make the same 
mistake with our schools. We need to follow the science.
    First, children can get the coronavirus, and they can pass 
it on to others. The President has claimed that children are, 
and I quote, ``almost immune to this disease,'' end of quote. 
But Dr. Fauci told our subcommittee last week, and I quote, 
``children do get infected, we know that, so therefore, they 
are not immune,'' end of quote.
    Evidence has started to pile up about outbreaks at summer 
camps such as CDC's report last week that 76 percent of 
children who were tested at a YMCA camp in Georgia have had the 
virus. Other summer camp outbreaks have been documented in 
Florida, New York, Texas, here in South Carolina, Louisiana, 
and other states. Nationwide, more than 338,000 children have 
tested positive for the virus.
    Second, the CDC has been clear that a key consideration for 
physically reopening schools is coronavirus rates in the 
community and that in-person school presents the, quote, 
``highest risk,'' end of quote, of spreading the disease. CDC 
Director Dr. Robert Redfield has warned that in virus hot 
spots, and I'm quoting him here, ``remote and distance learning 
may need to be adopted for some amount of time,'' end of quote.
    The White House Coronavirus Task Force reported last week 
that 21 states are in so-called red zones because they have 
high positivity rates or rising infections. Reopening schools 
in these hot spots presents heightened risks.
    Third. Even for schools outside of red zones, CDC experts 
and other scientists have urged that any schools considering 
reopening should take steps to limit transmission. That 
includes improving school ventilation systems, physically 
distancing, and wearing masks.
    Our schools face life-or-death decisions because of the 
administration's inexcusable failure to get the virus under 
control for the last six months, but there are steps the 
Federal Government can take to help schools safely reopen in 
person and stay open.
    As Dr. Fauci and Dr. Redfield told us last week, we can 
control the pandemic by wearing masks, limiting gatherings, 
closing indoor dining and bars, and practicing social 
distancing. The President needs to follow and promote this 
expert advice, not denigrate and distract from it.
    Rather than threatening to withhold funding from schools, 
we should assure every school has the resources it needs to 
safely educate students during the pandemic, whether remote or 
in person.
    The next coronavirus relief package must provide sufficient 
funding to meet these needs. It must also include the funds in 
the HEROES Act to provide mobile hotspots and other 
connectivity devices to students and subsidies to make the 
internet affordable for lower income families. I urge my 
Republican colleagues to support these investments in our 
children.
    I look forward to hearing from my witnesses who speak from 
deep expertise and experience in education and public health. I 
also invited Secretary DeVos to testify today so she could 
explain why she is pressuring schools to fully reopen despite 
the risks.
    I offered to accommodate her schedule, but she refused to 
appear. I find it hard to understand how Secretary DeVos can 
expect to lead our Nation's efforts to safely educate our 
children during this pandemic if she refuses to speak directly 
to Congress and the American people.
    I will now yield to my friend, the distinguished ranking 
member, Mr. Scalise, for his opening remarks.
    Mr. Scalise. Well, thank you, Mr. Chairman, and I 
appreciate you calling this hearing.
    I do want to mention since the chairman mentioned the 
President's spokesperson, Kayleigh McEnany, to finish the quote 
that was started by chairman. Quote, she said, the science is 
on our side here. We encourage the localities and states to 
just simply follow the science. Open our schools. That was the 
President's spokesperson on that issue.
    Mr. Chairman, last week, our Nation's top public health 
officials came before the Select Subcommittee and urged the 
importance for America's children to safely reopen our schools 
for face-to-face learning, for educational health, for mental 
health, for physical health, and yes, for the public health of 
our children.
    Dr. Redfield, who is the CDC head, testified under oath, 
quote, it's important to realize that it's in the public 
health's best interests for K-12 students to get back into 
face-to-face learning. There's really very significant public 
health consequences of the school closure. I do think that it's 
really important to realize it's not public health versus the 
economy about school reopening, closed quote.
    CDC guidance further adds, quote, the harms attributed to 
closed schools on the social, emotional, and behavioral health, 
economic well being, and academic achievement of children in 
both the short-and long-term are well known and significant. 
Aside from a child's home, no other setting has more influence 
on a child's health and well-being than their school.
    Dr. Fauci said just last week, school reopenings are 
important for, quote, the psychological welfare of the 
children. The fact that many children rely on schools for 
nutrition, for breakfast, for healthy lunches.
    The United Nations General Secretary Just this week called 
the situation around the globe with school closings, quote, a 
generational catastrophe that could waste untold human 
potential.
    Mr. Chairman, the overwhelming consensus among the public 
health community is that for the sake of the health and 
development of more than 50 million American children, it is 
critical to safely reopen schools for in-person learning.
    Let's get more specific. The Federal Child Abuse Prevention 
and Treatment Act requires each state to have procedures 
requiring teachers, principals, and other school personnel to 
report known or suspected instances of child abuse and neglect. 
This came up at last week's hearing as well.
    We've seen the reports of child abuse drop by an average of 
more than 40 percent compared to the levels reported during the 
same period in 2019. That doesn't mean that child abuse has 
stopped or dropped by 40 percent. It just means it's not 
getting discovered because our teachers were doing such a great 
job of doing that. Now those children are home with those very 
parents who were abusing them, and it's not getting detected. 
Imagine the damage to tens of thousands of our children because 
of that.
    The evidence from hospitals strongly suggests that child 
abuse has actually increased during the pandemic, in fact. 
Teachers can't report what they can't see, and as a result, 
thousands of children are being abused in America today. We 
cannot sit by and make excuses. We need to follow the safety 
guidelines and stand up for those children who are counting on 
us to take action and do our jobs.
    Our children in America need us to do what we know we can 
do. They don't need excuses from us. They need us to look at 
these challenges and recognize how to overcome them, and there 
are road maps everywhere from CDC to the American Academy of 
Pediatrics to so many other organizations.
    Dr. Redfield added last week, quote, we're seeing, sadly, 
far greater suicides now than we are deaths from COVID. We're 
seeing far greater deaths from drug overdose that are above the 
excess that we had as background than we are seeing the deaths 
from COVID.
    Again, I know we're used to seeing the charts, and we mourn 
every death from COVID, but why don't we talk about the other 
deaths that are happening because people are shutting in, 
because people are staying home? We cannot act like we're 
living in a vacuum, we're living in silos. When children aren't 
in schools, there are very devastating things happening to 
them.
    I understand we want to make sure that we have a safe 
environment, but again, we can't use that as an excuse. We have 
to go and figure out how to do it. We can't talk about how hard 
it is to do. A lot of people do hard work every day.
    People are going to hospitals every day working on the 
front lines. They're going to grocery stores working on the 
front lines. None of that is easy, but they do it because they 
know that everybody else is relying on them. We need to have 
that same can-do attitude.
    On the other side of the equation, CDC advises, quote, the 
best available evidence indicates that COVID-19 poses 
relatively low risks to school age children. Children appear to 
be at the lowest risk for contracting COVID-19 compared to 
adults.
    As of July 17, the United States reported that children and 
adolescents under 18 years old accounted for under seven 
percent of COVID cases and less than one percent of COVID-19 
related deaths.
    If we focus on the well-being of our children, the question 
really is not should we reopen. The question really is why 
haven't we started planning more widespread to reopen safely? 
All schools can be doing this. We've seen some schools do it 
even in hotspots. Now we're seeing schools that aren't in 
hotspots trying to figure out how not to reopen. This is not 
like inventing the wheel. Others have figured it out. We need 
to share that learning experience with everybody.
    The coronavirus continues to pose a serious threat. Dr. 
Redfield and Dr. Fauci gave us five things every American 
should do, and they testified it would have a dramatic impact 
on reducing the virus. I know the chairman talked about this as 
well, wearing masks, as I know we're all doing, social 
distancing, hand hygiene, staying smart about gatherings, and 
staying out of crowded bars and crowded areas.
    If we did those five things, we've done the modelling data. 
We get the same bang for the buck as if we shut the entire 
economy down. We should do all of those five things, and we 
should also encourage schools to safely reopen.
    We know that schools present some unique and specific 
challenges. The good news is, Mr. Chairman, each one of those 
challenges can be responsibly addressed. We're not talking 
about a one-size-fits-all model. Every school system's 
different. Hot spots move around. The good news is each one can 
be responsibly addressed.
    The main concerns, as we hear, are from teachers. Children 
may not be at great risk for getting sick, but they can spread 
the virus. Teachers with high risk factors, like any other 
person in a high-risk factor anywhere else that they go to 
work, knows that there are risks that you can help address.
    But smart school reopening will ensure that the risk of 
COVID coming into the schools is greatly reduced, and the 
chance of it spreading within the school is also mitigated.
    Finally, at-risk teachers can be socially distanced from 
kids by assigning them virtual learning responsibilities or 
other new tasks associated with mitigating the risks of 
spreading COVID.
    In most of the school settings I've seen, teachers aren't 
just six feet away from the nearest student. In many cases, 
they're over 10 feet away from the nearest student, and they're 
all wearing masks. Many schools have adopted CDC guidelines on 
symptom screening. Every day, parents can take their own 
child's safety and their own safety into their hands. They can 
take their temperatures. They can complete a checklist for 
symptoms. If the child or family member exhibits any of those 
symptoms, the child should just stay home.
    While no plan is perfect, CDC and the American Academy of 
Pediatrics have laid out guidelines for safely reopening 
America's school, and they address those concerns. Those 
guidelines should be followed by everybody.
    Once in the schools, students, faculty, and staff, of 
course, should wear masks and have access to easy hand 
sanitizing stations. That's why we put over $150 million out 
there for our states, a lot of which, by the way, is still 
available and can be used by our schools today. They don't need 
to wait for Congress to pass a new bill. There is over--almost 
$100 billion available to our schools and anybody else who 
needs them.
    Temperature checks, as students move throughout the 
building, and requiring physical distancing are all things that 
are mentioned. Six feet or more for desks keeps students in 
smaller groups. Many schools are doing platoons, improved 
ventilation by opening windows. Many schools are looking at 
conducting classes outdoors where it's possible, increase wipe 
downs of desks, chairs, equipment. These are all guidelines 
that have been laid out.
    If someone does get sick, and we know, by the way, that 
it's going to happen, have a plan in place to follow those 
scientific recommendations. Doctors and smart scientists have 
already laid out how to do it if these things happen. No school 
system should be just today wondering what to do in those 
situations. This should have been planned weeks ago, and if 
not, start planning it today and talk to the other school 
systems who are opening up next week.
    In my own home state of Louisiana, we have schools opening 
up in person next week, and they've already gone through these 
guidelines. They'll be happy to share that with anybody who is 
willing.
    Mr. Chairman, Washington, DC. just announced that their 
schools will not be open in the fall. Not one child under the 
age of 18 has died from COVID in the entire District of 
Columbia, and yet, they're shutting down all schools.
    If D.C. followed all of the safety guidelines that we just 
listed, and considering the devastating damage to these 
children, how can you justify the harm that you're doing to the 
tens of thousands of children in the city by shutting down in-
person learning? Those kids are going to suffer, and we all 
know it. The data is there. The science is there. The reports 
are everywhere about what damage is being done to those kids if 
those schools are not open.
    Education is a local responsibility, as we know, and each 
school must adapt to their unique challenges. That's why CDC 
laid this out in their guidance. It makes clear that a school 
in a hot spot must be more cautious than a school where 
transmission's very low, but all schools can and must develop a 
plan to resume in-person learning.
    The stakes are too high and the ability to dramatically 
lower risk too easily attainable for us to be having an actual 
debate about whether or not it can be done. It, of course, can 
be done, and it is being done in hot spots and in places where 
it's not a hot spot, and yet, it's not being done in places 
where it's not a hot spot.
    In conclusion, Mr. Chairman, I want to first thank you for 
holding this hearing, thank our witnesses that we're about to 
hear from. Our teachers have faced an unprecedented challenge. 
In the spring, they had to deal with closing schools early and 
put out new guidelines. We did see parents, including myself 
and my wife, step up to the plate in this new home school 
environment. Everybody has stepped up to the plate and has had 
to answer the call to this new challenge that we're all facing.
    I want to thank all of the teachers and the parents who 
home schooled for what they've done and what they're preparing 
to do to help educate over 50 million children who are counting 
on us. I want to extend a thank you to all who help us get our 
schools reopen and to help our kids have that opportunity to 
achieve the American dream that we enjoy, that we owe to them 
to give them that same opportunity.
    With that, Mr. Chairman, I yield back.
    Chairman Clyburn. Well, I thank the ranking member for his 
statement. And I would now like to introduce our witnesses.
    I'm honored to have the former Secretary of Education, Arne 
Duncan, with us today. Secretary Duncan led the Department of 
Education with distinction from 2009 through 2015. Prior to his 
service under President Obama, Secretary Duncan led the Chicago 
Public Schools for eight years. Since leaving government, 
Secretary Duncan has returned to Chicago where he works to help 
improve opportunities for young people.
    We are also joined by Dr. Caitlin Rivers, a Senior Scholar 
at the Johns Hopkins Center for Health Security and an 
Assistant Professor at the Johns Hopkins Bloomberg School of 
Public Health. Dr. Rivers is an epidemiologist, specializing in 
emerging infectious diseases, and a recent panelist for the 
National Academies of Science on reopening schools during the 
coronavirus pandemic.
    We are also grateful to be joined by Superintendent Robert 
Runcie of Broward County Public Schools in Florida.
    I would like to yield to my colleague and friend, 
Congresswoman Wasserman Schultz, who represents the southern 
portion of Broward County, for a brief introduction.
    Debbie.
    Ms. Wasserman Schultz. Thank you, Mr. Chairman.
    Thank you, Chairman Clyburn, Ranking Member Scalise, and 
the Select Subcommittee on the Coronavirus Crisis, for allowing 
me to introduce an esteemed witness from my district, 
Superintendent Robert Runcie.
    I am honored to represent Broward County which is home to 
the sixth largest public school district in the country and the 
second largest in Florida. We entrust the safety and education 
of nearly 270,000 students and 175,000 learning adults at 241 
schools, centers, technical colleges, and 89 charter schools to 
Superintendent Runcie.
    Under his leadership, our students have seen improved 
literacy in graduation rates, college acceptances, and career 
readiness. He has also expanded technical programs, established 
the first military academy, and expanded access to speech and 
debate, art, music, physical education, coding, and STEM 
offerings.
    I can personally speak to the superintendent's skillful 
leadership. My twins graduated from a Broward County public 
school, and my youngest daughter is currently a senior in the 
district.
    During the pandemic, Superintendent Runcie has worked with 
the school board, principals, teachers, staff, parents, and 
students to ensure that everyone remains safe and that their 
education is not compromised. This is no easy task with 
President Trump and Governor DeSantis at the helm of our state, 
each one recklessly browbeating schools to return in person, 
even threatening to withhold funds if they don't return in 
person five days a week while a virus rages through our 
community and just as cases and deaths spike even higher.
    Yesterday, total cases in our state topped 500,000. 
Distressing records were set all through July. People are 
dying, our hospitals are stressed, and a rushed return to 
school would only put more people at risk. Superintendent 
Runcie is paving a prudent model pathway, beginning our school 
year online, and keeping our teachers, staff, and students 
safe, one that other school districts will be able to follow.
    I'm thrilled to introduce him to you so you can see why he 
is the pride of Broward County and the remarkable leader of our 
Broward County Public Schools.
    Thank you, Mr. Chairman. I yield back.
    Chairman Clyburn. Thank you, Ms. Wasserman Schultz.
    Next, I am pleased to introduce Angela Skillings from Gila 
County, Arizona. Ms. Skillings teaches second grade in the 
Hayden Winkelman Unified School District in eastern Arizona.
    Despite strictly following the CDC school guidance 
precautions, Ms. Skillings and her two co-teachers contracted 
the coronavirus while teaching summer school together. Ms. 
Skillings and one of her colleagues recovered, but a third 
teacher, Kimberly Byrd, passed away.
    Ms. Byrd had been a public school teacher for 38 years. She 
was a wife, a mother, a grandmother, and I know her passing has 
been devastating to her family, her students, and her 
community. Ms. Skillings, I am truly sorry for the loss of your 
friend and colleague, and I appreciate your willingness to 
speak with us today and share your experiences.
    Finally, we are joined by Dan Lips, Director of Cyber and 
National Security at the Lincoln Network and a Visiting Fellow 
at the Foundation for Research on Equal Opportunity.
    The witnesses will be unmuted so we can swear them in.
    Please raise your right hands.
    Do you affirm, swear or affirm, that the testimony you're 
about to give is the truth, the whole truth, and nothing but 
the truth, so help you God?
    Thank you. Let the record show that the witnesses answered 
in the affirmative.
    Without objection, your written statements will be made a 
part of the record.
    With that, Secretary Duncan, you are now recognized for 
your testimony.

   STATEMENT OF THE HONORABLE ARNE DUNCAN, MANAGING PARTNER, 
 EMERSON COLLECTIVE, FORMER SECRETARY OF EDUCATION (2009-2015)

    Mr. Duncan. Chairman Clyburn, Ranking Member Scalise, thank 
you for inviting me to offer testimony today.
    We are confronting not one or two but of several crises at 
once. The first is the pandemic itself which began as a natural 
disaster.
    The second is the abject failure of leadership from the 
Federal Government which inflamed that natural disaster into a 
manmade catastrophe that has led to the worst economic crisis 
since the Great Depression.
    At the same time, we're also facing a much-needed reckoning 
with America's long history of systemic racism which has some 
of its most damaging effects in our Nation's schools.
    Today these multiple crises have all come to a head at 
once, and some of the Americans who risk paying the highest 
price are our children.
    The essential question is, how can schools reopen in the 
midst of a pandemic? Look. We all want our children to go back 
to school in person. Everyone is united in that; parents, 
students, and teachers, all of us. But we can only allow that 
once it is safe. And everyone is looking to our Federal 
Government to show some leadership here because in the absence 
of a clear plan, superintendents are being left to navigate 
these decisions on their own.
    As a Nation, we're asking them to solve problems that the 
Federal Government has been making worse. We're asking them to 
make potentially life and death public health decisions. We're 
asking 15,000 school districts to become 15,000 healthcare 
providers without any real resources or expertise.
    We're asking them to sanitize and secure physical 
infrastructure, redesign food systems, rethink transportation 
systems, and reengineer mental health systems that are already 
strapped. And, by the way, we're also asking teachers who may 
be at high risk to go to school every day where they might 
catch COVID-19 and bring it home to their families.
    We're asking all of them to do all of these things under 
the threat of a President and a Federal Government that's 
saying reopen or else. They're telling schools to choose 
between safeguarding our health and getting the funding that 
they desperately need.
    Let's be clear. Schools are part of a community. So, even 
if we do miraculously manage to secure our schools, the truth 
is, if we don't keep the rest of our communities healthy and 
safe, we will all remain at risk.
    The bottom line is this: If we really want our kids to go 
back to school safely, the single most important thing we can 
do has nothing to do with education at all, and that is defeat 
the virus.
    What infuriates me about what is happening today is that 
it's an unforced error. We're in this situation because our 
Federal leadership failed us, period. It did not have to be 
this way. If we had done what was necessary in the spring, 
wearing masks, social distancing, testing to scale, contact 
tracing, we could have brought students back earlier in the 
summer to recoup that lost learning time.
    If we had valued our students and teachers more than our 
bars and our restaurants, we'd be sitting here today with a far 
better chance of more districts safely reopening. If Congress 
had appropriated a significant investment in schools back in 
the spring, our local communities could have immediately 
deployed those resources to address glaring equity gaps that 
COVID-19 has both exposed and, unfortunately, exacerbated. 
Manmade catastrophes are absolutely tragic, but they can also 
be repaired, and the time to start is now. So, here is where we 
ought to begin.
    First, Congress needs to immediately deploy funds where 
they're needed most, and that should include at least $200 
billion in funds to states and districts which would be 
targeted primarily to low income schools.
    Funding should be targeted to our children who are most 
vulnerable, those who experiencing homelessness, students with 
disabilities, and English language learners as has been done in 
previous disaster relief bills.
    Money should also be targeted to a national tutoring 
initiative. We have millions of college students, recent 
graduates, and retired individuals, who could serve as a 
nationwide resource to provide intensive tutoring to students 
who need to regain lost learning time due to both the COVID 
slide and the summer slide.
    The Federal Government could spur this idea into action in 
partnership with private sector leaders.
    Fifty billion dollars in child care funds should be 
included so that this essential system can continue to serve 
our communities, including our teachers and school staff, and 
$7 billion in E-rate funding to close the digital divide that 
exacerbates the inequities in educational opportunity between 
the haves and have nots.
    So, that's what we should be doing, and here is what we 
should not be doing. We should not be delaying the start of the 
school year. Our children have lost far too much valuable 
learning time already.
    Schools need to begin, but how school starts, whether they 
are in person, remote, or some hybrid model, that's going to 
have to vary from place to place. And very importantly, our 
goal can't just be opening schools. It must be keeping them 
open because if we open them up only to close them a short time 
later, that will just create more instability, more chaos, and 
more confusion. We don't need any of that.
    Students, parents, teachers, staff, they all need and 
deserve stability. So, we should be focused on starting school 
in whatever way is safe and responsible with the clear goal of 
bringing more students back over time.
    I wish, I desperately wish, that we could go back to 
earlier this year and change the way this pandemic was managed 
from the start, but we can't. What we can do is act now so we 
don't keep making matters worse.
    What we can do is something that hasn't been done yet by 
this administration, and that's put our students, our children, 
front and center in how we make decisions. Don't they deserve 
that? Don't the American people deserve that?
    Thank you again, Chairman Clyburn, and Ranking Member 
Scalise. I appreciate the opportunity to appear before you 
today. I look forward to taking your questions.
    Chairman Clyburn. Thank you, Mr. Duncan. We will now turn 
to Dr. Rivers.
    Dr. Rivers, you're now recognized.

STATEMENT OF DR. CAITLIN RIVERS, SENIOR SCHOLAR, JOHNS HOPKINS 
CENTER FOR HEALTH SECURITY, ASSISTANT PROFESSOR, DEPARTMENT OF 
 ENVIRONMENTAL HEALTH AND ENGINEERING, JOHNS HOPKINS BLOOMBERG 
                    SCHOOL OF PUBLIC HEALTH

    Ms. Rivers. Chairman Clyburn, Ranking Member Scalise, and 
distinguished members of the committee, thank you for the 
opportunity to speak with you today about safely reopening 
schools during the pandemic.
    We have been looking ahead to school reopening since they 
first closed in March. As I'm sure my colleagues here will 
attest, schools play multiple essential roles in our 
communities. They educate our children, they provide basic 
healthcare, access to mental health services, meals, and they 
provide childcare for working parents. In so many ways, the 
schools are the flywheel of our society.
    But we are not here today because anyone disputes the value 
of schools. Schools did not close in March because they faded 
in importance. They closed because of the pandemic. They closed 
because we care a great deal about protecting children and 
teachers and families at home and ensuring their health and 
safety is a top priority.
    We know more about the virus than we did in March. We know 
that children are much less likely to experience severe illness 
than adults, and often their infections are so mild that they 
are not even detected. Nationwide, less than 10 percent of 
recognized coronavirus cases are in children, but we also know 
there are many more infections that are not detected and that 
we only see the tip of the iceberg.
    Children are much less likely to die than adults. Less than 
one percent of coronavirus deaths in the U.S. are in kids, but 
less than one percent is not the same as zero. Tragically, 488 
people between the ages of 0 and 24 have died of COVID-19 as of 
July 29, according to CDC.
    And schools are not attended only by children. They are 
also workplaces for teachers and staff who may be at higher 
risk of severe illness because of their age, and children 
return home to family members, many of whom may be older adults 
who have underlying health conditions. Although many gaps in 
our understanding remain, it's become increasingly clear that 
it is possible for children to spread the virus. Multiple 
outbreaks, some quite sizable, have been described in childcare 
settings.
    Recently, a report of an outbreak at a summer camp in 
Georgia found that nearly half of campers were infected. The 
camp had to close just a few days after opening.
    There are still some open questions about whether children 
are as infectious as adults or whether they are somewhat less 
likely to spread, but the risk here underscores the importance 
of mitigation measures to slow the virus's spread. On that 
front, we also know more now than we did in March. In addition 
to physical distancing and hand hygiene, it's now clear that 
universal masking and ventilation and air circulation are 
important for reducing risk.
    Limiting the number of contacts any person has, which in 
the school setting may mean hybrid approaches or pods or 
cohorts, are important options as well.
    But above all, the most important factor in determining 
whether schools can safely reopen is the prevalence of the 
disease in the community. Communities that have a lot of virus 
circulating will have a much tougher time reopening safely than 
places where things are under better control.
    How these factors come together, the importance of schools, 
the risk of the virus to children, teachers, and family, local 
disease prevalence, mitigation measures, this is probably the 
most complex decision that we are facing in this pandemic. We 
all want in-person learning, but when and how we can make that 
happen, and how can we do it as safely as possible is the 
question at hand.
    The final word on these decisions should be left to 
communities. How communities weigh the risks and benefits and 
resources available to support in-person learning will vary 
from place to place. That decision-making process should 
include a coalition of staff, families, health officials, and 
other community stakeholders, but communities can't decide 
alone, and they can't implement alone.
    School leaders and families are not experts in epidemiology 
or pandemic preparedness. They need clear guidance and 
technical support from our public health authorities at all 
levels, Federal, state, and local.
    For example, CDC documents on school reopening distinguish 
substantial controlled from substantial uncontrolled spread, 
and they encourage consideration of school closures for the 
latter, for substantial uncontrolled spread. But additional 
guidance on what indicators and thresholds might differentiate 
between substantial controlled and substantial uncontrolled 
would help communities to better assess their local conditions.
    Districts also need supplemental funding to implement the 
mitigation measures that we need to slow spread and to support 
the technologies and support services needed to deliver remote 
learning.
    And above all, they need to be able to make decisions 
appropriate to their local disease prevalence, risk tolerance, 
and capacity to implement mitigation measures without fear of 
having funds withheld or their decisions undermined.
    Although we have learned a lot about the virus in the last 
few months, there are still many questions unanswered. CDC and 
NIH should put in place now the necessary research studies to 
collect data on our most pressing questions which could include 
the degree to which asymptomatic children are infectious, which 
mitigation measures are most important, how remote learning can 
be effective, and how best to approach these issues with 
respect to underlying educational inequities.
    The more we can learn about this virus, the better informed 
our decisions will be, and we can be sure that there will be 
many more difficult decisions ahead, including those on 
schools, between now and when we find a safe and effective 
vaccine that is accessible to all Americans.
    Thank you.
    Chairman Clyburn. Thank you. Ms. Runcie. Ms. Runcie, you 
are now--Ms. Skillings, you are now recognized. Oh. I'm sorry. 
Mr. Runcie, you are now recognized.

 STATEMENT OF ROBERT W. RUNCIE, SUPERINTENDENT, BROWARD COUNTY 
                         PUBLIC SCHOOLS

    Mr. Runcie. All right. Thank you, Chairman Clyburn, and 
Ranking Member Scalise, and distinguished members of the Select 
Subcommittee on the Coronavirus Crisis.
    Thank you for the opportunity to testify today, and a 
special thank you to Congresswoman Debbie Wasserman Schultz for 
her leadership and relentless support and advocacy for our 
children.
    In less than two weeks, Broward County Public Schools will 
start the new school year. The first day of school has always 
been a day of great anticipation and excitement as every one of 
our 30,000 employees welcome back almost 270,000 of our 
precious children into our classrooms. Providing valuable 
learning opportunities for our kids, offering engaging 
experiences, that's what we live for. The coronavirus pandemic 
has changed all of that. It is painful and enormously 
disappointing not to be in a position to open our schools 
safely.
    On March 13, we announced the closing of our school 
campuses due to the coronavirus pandemic. And within just a few 
short days of our schools closing, we became the lifeline for 
many in our community. We continued to distribute food from our 
local school sites and have since then served over 2 and a half 
million meals to students and families.
    We addressed digital inequities by distributing more than 
100,000 laptop computers to our students who needed one while 
also offering discounted internet services for families and 
free mobile hotspots to students, those that have housing 
instability and homeless as well.
    District mental health staff, they continue to provide 
services to our students. Our amazing school social workers 
received more than 34,000 referrals and have provided close to 
160,000 interventions.
    Looking forward, a big consideration about how and when we 
open schools is the state of the pandemic. Unfortunately, south 
Florida continues to be a hot spot for coronavirus spread in 
this country.
    As of this week, Florida had reported more than 480,000 
known cases of coronavirus with the highest concentrations 
right here in Broward and Miami-Dade Counties where the 
positivity rate has at times been as high as 20 percent.
    Public health experts and infectious disease physicians 
almost universally recommend that children not go to school 
until the positive test rate is three to five percent over a 
rolling two-week average. Our local positive test rate is still 
averaging above 10 percent.
    As we continue to consult with our local public health 
officials and medical experts for guidance, I've been clear 
about reopening schools, and that is we will not compromise the 
health and safety of our students, teachers, and staff. That's 
our highest priority, period.
    Faced with an ongoing pandemic that continues to spread 
through our community, our only option when the school year 
starts in just a few short days will be to begin with a 
distance learning or what we call e-learning models for all 
students. That is the only we can educate our students while 
still keeping them, their teachers, and all employees healthy 
and safe. We simply cannot risk exposing our students and staff 
until the coronavirus is under control.
    Our commitment is to deliver high quality instruction to 
our students, regardless of which learning model we provide. We 
understand that e-learning will never be a substitute for face-
to-face teaching and learning in our classrooms, but during 
this time, our students will continue to learn, and we will 
work to make the learning environment personal, engaging, 
interesting, challenging, and fulfilling.
    I will continue to ask our community for help. The only way 
our district will be able to open our school buildings is when 
we've lowered the number of coronavirus cases in our community.
    It will require each and every one of us to contain 
community spread of COVID-19 by wearing masks, by physical 
distancing, and changing our behaviors. I'm also urging and 
begging our Federal Government to pass an additional 
coronavirus relief package that responds to the impact of 
COVID-19 and assists with the ongoing recovery by providing at 
least $200 billion to public schools across this country that 
serve over 50 million students.
    This funding is critically needed to help cover the 
impending substantial shortfalls in state and local revenue 
collections to continue to feed students and their families, to 
close gaps in remote learning, to expand mental health 
services, to provide reliable high speed internet access for 
all students, and to purchase the necessary PPE materials and 
equipment for enhanced cleaning and sanitation protocols so we 
can make our schools safe for our students, teachers, and staff 
when we open.
    Our children have so many abilities and talents to develop 
and countless dreams that are being stifled by COVID-19. We owe 
it to them and future generations to meet this pandemic head on 
by developing and implementing national and local strategies to 
get this pandemic under control. And to provide the necessary 
funding and support so we can fully open schools and safely 
provide them with the opportunities to thrive. They deserve 
nothing less.
    Thank you, and I look forward to answering your questions.
    Chairman Clyburn. Thank you, Mr. Runcie.
    Ms. Skillings, you are now recognized.

   STATEMENT OF ANGELA SKILLINGS, TEACHER, HAYDEN WINKELMAN 
                    UNIFIED SCHOOL DISTRICT

    Ms. Skilling. Thank you, Chairman Clyburn, Ranking Member 
Scalise, and the rest of you distinguished members of this 
committee for taking your time to hear us today.
    Chairman Clyburn already talked about Ms. Byrd and her 
story. We were virtually teaching summer school when we 
contracted COVID-19. Ms. Byrd did pass away less than two weeks 
after her--after going into the hospital.
    I am a second grade teacher. I've been teaching for 17 
years. This will be my 14th year at this district. We are a 
very rural, small town in eastern Arizona. We only have 3--
around 300 students, kindergarten through 12th grade, 90 
percent Hispanic, 84 percent free and reduced lunch. Our 
students start school in kindergarten or preschool, and they 
stay in the same cohort, same classrooms, all through senior 
year unless they move out of our district.
    Our school is a community, but we're also a family, and we 
are all worried about the struggle of returning to school. Our 
district was just hit again last week. We had four more support 
staff members contract the virus. Seven staff members out of 
the 60 members of our district staff, that is a little over 11 
percent. We need to--together as a staff, we are worried about 
each other and about what can happen, and we are not ready to 
lose another staff member.
    I think about the emotional impact of our students and them 
not being in the classroom. I also think about the impact of 
them losing Ms. Byrd. She was here for 38 years. She was my 
son's teacher for second and third grade. She was a dear 
colleague, a mentor, and a friend.
    Our students have expressed to me how they were concerned 
that even I would pass away, and that right there is 
emotionally damning. It would bring them into the classroom, 
and when somebody passes away, how is that going to affect 
them?
    I cannot speak for all teachers, but I can speak for the 
teachers in our community and the teachers I have talked to 
throughout the United States in the last of couple weeks. We 
have continually been told that children don't contract and 
transmit the virus, but how do we know that? We put them in 
seclusion. We took them out of the classroom in March. They 
have been sheltered, at least in our community.
    To me, we are forcing schools to be open, and that is going 
to put those students back into the petri dish that we have in 
our classrooms. They spread everything. Students are children. 
Children are children. They like to be around each other. They 
like to share.
    Why are we putting them in there? Do we need that to gain 
more data on that age group? We need it--we do know that it 
doesn't spread or that they're not affected as much and that 
only one--around one percent have passed away.
    But do we need the statistics, or should we more think of 
the humanitarian value of when our students going home after 
being--after contracting it in our schools and then giving it 
to their family members. Our community--when I first tested 
positive for COVID-19, in the small town of Winkelman, I was 
the only person. Just me. No. 1.
    Now in the last six and a half, seven weeks, we are up to 
28, so we need to be careful. We need to think about our 
community. I can tell you after teaching seven years in second 
grade, I have seen them pass everything around from pink eye to 
stomach flu to even influenza. So, passing around COVID-19 will 
not be something we can stop, and we all know that.
    My main concern is if we, as adults, cannot be in a 
classroom together or into a meeting together, we have to 
cancel work. We are working from home. Then why are we forcing 
children back into the classroom? Why are their lives more--not 
as important as adults?
    I understand that adults, you know, contract and have 
problems, but if we bring kids into the classroom, they're 
taking it home. And these kids, yes, are our future. They are 
our--they are our leaders. They're going to be there 30, 40 
years from now, and we need to protect them now.
    Teachers will be teaching in our district online. We will 
be teaching face to face, offering whole group and small group 
instruction on a virtual platform. Schools are making 
adjustments to address the student needs per their district.
    Our district is also putting an emphasis on social and 
emotional learning. Yes, teachers want to be in their 
classrooms, but teachers also need to think of themselves and 
their families. Our jobs, our careers are not just about our 
students. We also have to worry about our community and the 
people we work with and our own families at home.
    I was looking at the money, and yes, I would like to thank 
our government--excuse me--our government for what they have 
given to us. That helped our district by the things that we 
needed to get started with students in our classrooms, but we 
also have to think about the other stuff.
    If our buses are going to be making more runs, we are going 
to need more money to help with transportation. We're going to 
need more money to help with substitute teaching. If a teacher 
has to teach from home, and we have students in the classroom, 
we will have to have someone in the classroom with them. They 
cannot just sit in the classroom while the teacher is online.
    My finishing quote is--I love to say this one. We can 
recover a child's lost education, but we cannot recover a life.
    Thank you again for taking the time to hear my story.
    Chairman Clyburn. Well, thank you very much, Ms. Skillings.
    We'll now hear from Mr. Lips.

STATEMENT OF DAN LIPS, FELLOW, FOUNDATION FOR RESEARCH ON EQUAL 
                          OPPORTUNITY

    Mr. Lips. Good afternoon, Chairman Clyburn, Ranking Member 
Scalise, and members of the subcommittee. Thank you for the 
opportunity to testify.
    My name is Dan Lips, and I'm a visiting fellow with the 
Foundation for Research on Equal Opportunity or FREOPP, a 
nonpartisan research organization that focuses on the impact of 
public policies and reforms on those with incomes or wealth 
below the U.S. median.
    As we've heard today, communities across the country are 
facing difficult decisions about how to begin the school year 
during the pandemic. The prospect of any child, teacher, or 
school employee contracting COVID-19 and facing the possibility 
of death or serious illness should weigh heavily on all 
policymakers involved in decisions affecting schools' plans. 
But it's critical that policymakers also recognize the serious 
risks associated with prolonged school closures, particularly 
for disadvantaged children.
    Researchers studying the educational effects of school 
closures warn that time out of school results in months of lost 
learning and that the learning loss are most acute for low 
income students. The bottom line is that prolonged school 
closures will create a large achievement gap for a generation 
of American children.
    Beyond these educational effects, prolonged school closures 
create significant risks for children's health and welfare. 
There's alarming evidence which I describe in my written 
testimony that prolonged school closures since the spring have 
endangered child welfare.
    Closures also have significant negative effects for 
parents. Many parents have been forced to choose between their 
jobs and their childcare, and this challenge is, of course, 
most difficult for single parents.
    The good news is that it's possible for schools to reopen. 
Health experts, including the American Academy of Pediatrics, 
have issued guidelines for safely reopening schools with 
certain precautions such as physical distancing, utilizing 
outdoor space, cohort classes to minimize crossover among 
adults and children, and face coverings for students, 
particularly older students, and for teachers and school 
personnel.
    We're seeing many school districts choose to reopen across 
the country with in-person instruction or hybrid learning 
options at the beginning of this fall. According to a new 
analysis from University of Washington researchers, 41 percent 
of rural districts and 28 percent of suburban districts plan to 
provide in-person instruction this fall. But the majority of 
the Nation's largest public school districts are not reopening 
with in-person instruction.
    Seventy-one of the Nation's largest 120 school districts 
are beginning the school year with remote learning. Altogether, 
these school districts serve more than 7 million children, 
including 1.4 million children living in poverty.
    It's important to recognize that children from low income 
families have fewer resources to learn outside of school and 
their peers. According to one estimate, rich families spend 
more than $9,000 out of pocket on their children's educational 
and enrichment outside of school each year while the poorest 
families spend $1,000 or so.
    Today, families with financial means are working to create 
better options than remote learning, including home schooling, 
setting up pandemic learning pods or micro schools by forming 
co-ops with other parents and hiring teachers or tutors, but 
children from lower income families have few options.
    Policymakers must address this inequality. For example, 
states should use existing CARES Act funds to provide aid 
directly to parents in the form of education savings accounts 
or scholarships to support their children's outside of school 
learning needs. Oklahoma, New Hampshire, South Carolina are 
already doing this. Other states should follow their lead.
    As Congress considers future aid packages for K-12 
education, you should provide aid directly to parents to help 
disadvantaged children learn when their school is closed. 
There's precedent for providing emergency education relief in 
this manner.
    After Hurricanes Katrina and Rita in 2005, many children 
were displaced and had nowhere to go to school. Congress 
provided more than $1 billion in aid that followed affected 
children to a school of their parents' choice, allowing them to 
continue their education.
    If millions of children are unable to attend school this 
year, Congress should focus much of its aid in a similar 
manner, providing direct assistance to help children continue 
learning while schools are closed.
    In my written testimony, I discuss these and other 
recommendations for how school systems can prioritize and 
address the needs of disadvantaged children during the 
pandemic.
    Since 1965, Congress has rightly focused Federal education 
aid on promoting equal opportunity for at-risk children. In 
2020, this will require focusing aid to support disadvantaged 
kids who cannot go to school.
    Thank you for the opportunity to testify. I look forward to 
your questions.
    Chairman Clyburn. Thank you, Mr. Lips, and let me thank all 
of the witnesses here today for their testimony, and we now 
will move to a period of questions and answers, and I would 
like now to yield myself five minutes for questions.
    Mr. Lips, I'm particularly interested in your testimony. 
You indicated the challenges that rural districts have and low-
income districts. When I taught school, I taught in a very low-
income district, and trying to teach history to low-income 
students who do not have as much support in the home as some 
others. It's a pretty significant undertaking, I'll promise 
you.
    I would like to know from you, though, what would you 
suggest that, as lower--rural, low-income school district would 
do with parents incapable of investing the amount of resources 
in their children's learning, as you have highlighted here, 
what would you say the school district ought to do with that 
school district?
    Mr. Lips. I think there are several options, Chairman. 
Thank you for the question.
    I think that we're hearing encouraging strategies of 
deploying remote learning technologies, trying to close the 
digital divide. That's an important way to try and address this 
gap.
    I also think that providing aid directly to these families 
to hire tutors, to provide childcare would be a compelling way 
to address the outside-of-school learning gap that we've seen 
in pretty stark terms since the spring. Some of the divergence 
of the learning that was provided--the instruction, I should 
say, that was provided while schools were closed is 
discouraging. There were lots of pandemic dropouts of kids not 
logging into remote learning.
    I think gearing more resources directly to the parents of 
disadvantaged children to make better decisions on their behalf 
and try and take advantage of some of the options that more 
wealthy people have been trying to do: to hire tutors, forming 
pandemic pods. That's not to say that schools themselves don't 
need resources. I'm suggesting that some of that aid should be 
provided directly to parents.
    Chairman Clyburn. Well, I agree with that, but let me 
followup a little bit. I'm concerned about--you mentioned 
online learning at the outset, which is great if you're 
connected. If you're from a school district where the adoption 
rate is around 35 percent, as it is in my congressional 
district, and you're low income in the first place and, 
therefore, you aren't able to hire tutors--and if you're able 
to hire tutors, then we have another problem with distancing 
and masking and other issues--how would you suggest that school 
district function?
    Mr. Lips. Mr. Chairman, thank you for the question.
    On the first point, I absolutely agree with some of the 
conflicts that were described earlier in terms of providing 
remote instruction to disadvantaged children and trying to 
close the digital divide by providing subsidized internet 
access and hardware--information technology hardware to close 
that gap.
    At the same time, I think there are real great 
opportunities to provide direct scholarship aid or education 
savings account aid directly to low-income families so that 
they can partner with a couple other families and hire a tutor 
to make sure that their children don't suffer the learning loss 
that we--you really should be expecting at this point with 
these prolonged school closures.
    Understanding that there are likely risks of people 
gathering in--together in any circumstance, under a pandemic 
pod or micro school, it would at least be a smaller group of 
children. The ability to adhere to CDC guidelines by social 
distancing would be very feasible if a tutor was working with, 
say, four or five kids at a time while schools are closed.
    Chairman Clyburn. Well, thank you.
    I'll now yield to the ranking member for any questions you 
may have.
    We're not hearing you. I now see you, but I can't hear you.
    Mr. Scalise. Is that working now, Chairman?
    Chairman Clyburn. OK. OK.
    Mr. Scalise. All right. Thank you.
    I know, when we heard some of our witnesses testify, it was 
clear that they didn't watch last week's hearing because there 
was a lot of talk last week by some of the President's best 
medical experts about the different steps that the President 
has taken that have not only laid out a clear plan but also how 
it saved lives, saved millions of lives, in fact. So, you know, 
maybe they should watch a replay of that hearing, and they 
could learn some things themselves about other things that this 
administration has done working with very smart people, 
including, last week, we had Dr. Fauci, we had Dr. Redfield, 
and we had Dr. Giroir all talking about different steps that 
the President is taking as part of an overall plan to help us 
find a vaccine, which, as we've seen, is revolutionary in where 
we are in stage three testing for two different major drugs 
that could be ready to go possibly in a month or two that are 
showing incredible promise.
    That's only happening because of the President's plan, 
called Operation Warp Speed, which I would direct them to go 
see. It's a way that the President has moved all of the red 
tape of agencies like the FDA out of the way so that we can 
focus all of our resources from our smartest scientists in the 
world into finding a vaccine and other therapies, like 
Remdesivir, that they have also approved for treatment for 
COVID-19.
    But we have also seen all of the steps that have been taken 
by the administration to lay out guidance, from the Centers for 
Disease Control to CMS and other agencies, to safely reopen 
businesses, nursing homes, and of course, as we're talking 
about today, Mr. Chairman, safely reopening schools.
    And it's not just the CDC that's put out these guidelines. 
It's other respected agencies, like the American Academy of 
Pediatrics, probably the most well-respected people who deal 
with the health of our children, pediatric doctors, and they 
laid out guidelines. They didn't say that you just throw the 
kids back into school and have a petri dish setting, probably 
like we did before. You know, I think that, when you go back to 
a setting that we'll see in the next few weeks, it won't be 
anything like we've seen before, and there were things like all 
kind of viruses where a common flu killed kids all across the 
country, and maybe we should have been taking better steps like 
we're taking now on hygiene and washing hands and other basic 
things. But now we know a lot more than we did just a few 
months ago.
    We know how to reopen safely, and the guidelines are there 
very clearly for how to do it. What's interesting is that some 
school systems have spent all their time working to get it 
done, and then you see a few, unfortunately, that are trying to 
find reasons not to get it done, and it's not for lack of the 
money. I know I've heard a lot of talk about money, but as I 
talked about last week, states have nearly $100 billion that 
we've already sent them that can be used to safely reopen 
schools. And I haven't seen a run on that money. The money is 
still there. It's still there.
    Most states have over 70 percent of the money that we, 
Congress, sent them in the CARES Act, and so I know some people 
want to talk about new money and, you know, hundreds of 
billions of dollars, but when you still have nearly $100 
billion that's unspent and available, sent to states to do 
things like safely reopen schools, I hope they would go look to 
that money first and find a way to get it done for the 
children.
    That's what I wanted to ask you, Mr. Lips, about because we 
know that being in person works much better for most people. 
Home schooling is a very successful part of our education 
system, but it's a very small percentage of parents who choose 
that option for their kids. Most want the in-school setting, 
and there are a lot of studies that show, for many kids, in-
person is just--there is no substitute for it, and so that's 
why we need to put such a focus on it.
    Have you seen in those guidelines that it's flexible enough 
to handle different kinds of school systems in different kinds 
of parts of the country, Mr. Lips?
    Mr. Lips. Absolutely. I think that what we really need here 
is flexibility, and, for schools to respond effectively, we 
need to think creatively about bringing kids back into the 
classroom. We clearly know that in-person instruction is the 
best way to educate children. What we saw during the spring 
when many school districts were not providing one-on-one 
instruction when schools were remote, lots of parents reported 
that they--their children really didn't learn very much and 
weren't logging in consistently. We saw pandemic dropouts of 
kids. In some cities, as much as one-fifth of the kids never 
logged on.
    We need for an--educationally, we need kids to be in the 
classroom to be able to benefit from in-person instruction, 
but, also, there is the critical element that you discussed 
before about the schools being on the front lines of our child 
welfare systems. There have been alarming reports of 
undercounts of child abuse reporting that's happening, yet we 
are concerned that those abuse incidents are happening, just 
not being reported. There has been an alarming increase in 
calls to the National Sexual Abuse Hotline, including increased 
calls from children.
    We need kids back in school if--when it's safe, both 
educationally but also for children's welfare.
    Mr. Scalise. Thank you very much.
    Mr. Chairman, I yield back.
    Chairman Clyburn. I thank the gentleman for yielding back.
    The chair now recognizes Ms. Waters for five minutes.
    Ms. Waters. Thank you very much, Mr. Chairman.
    I'm very, very pleased that you're holding this hearing. 
This subject of whether or not we're going to be able to 
educate our kids is a subject that's on the minds of so many 
families, so many parents, and so many people who don't have 
children in school anymore. We're really, really, really 
concerned about all of this, amazed at those who are insisting 
that we open the schools and disregarding all that we have 
learned about, you know, what should and should not be done 
basically as we deal with this pandemic.
    We know that some, like Mr. Scalise is saying, that they 
know that we'll lose some kids. Well, what percentage of kids 
are you willing to lose? I'm not willing to lose one kid when 
we don't have to.
    So, I think it's very important for us to listen to the 
parents, and from what I can understand, most of the parents 
are saying they are afraid. They don't want the kids back in 
the classroom. We have not been able to guarantee their safety.
    Let me ask the Honorable Arne Duncan--and thank you for 
being here--have you heard about the percentage of parents who 
are saying they don't want the kids back in the classroom, they 
don't believe that we have the safety measures that are 
necessary to protect them? If so, what percentage of parents 
are frightened to send the kids back?
    Mr. Duncan. That varies community by community. And it's 
great to see you again.
    That varies community by community. Parents are very 
concerned. You know, my wife and I are concerned. We see that 
in urban districts. We see that in rural districts. Again, I 
think the thing that frustrates me the most is, if had we done 
what we needed to do as a country in March and April and May 
and June and July, and now in August, all of us parents would 
have less concern.
    Had we invested in schools to get them all the--you know, 
the equipment that Bob Runcie talked about, had we done the 
things we did to secure our schools and make them more viable 
to open now, we would have alleviated those parents' concerns. 
But our lack of action, our lack of investment, our lack of a 
plan has heightened that concern, that fear to a level that it 
just--we just don't need to be here now, and so that's----
    Ms. Waters. Absolutely. Absolutely. Absolutely.
    Arne, I understand that some of the schools in the richer 
areas certainly are not sending the kids back. They are opting 
for tutors, et cetera, et cetera. And I'm not being facetious 
when I ask this, but I understand that the son of the President 
of the United States is attending--would be attending a school, 
but his school will not be opening up, and they're projecting 
that maybe they'll open up by October.
    Have you heard this information?
    Mr. Duncan. Well, not only is that correct, but this 
pandemic doesn't know political party. It doesn't know wealth 
versus poverty. It doesn't know urban versus rural versus 
suburban versus, you know, Native American country. This 
pandemic doesn't discriminate.
    And, for all of our children--and not just our children; 
for their parents, for their grandparents, for our teachers, 
like Angela and her colleagues, for them to be safe, we have to 
do the right thing here. So, many schools--again, I'm pushing. 
I don't want to delay the start of school. Our kids have lost 
too much learning time. I want to have an almost mandatory 
summer school starting July to get kids caught up because we 
didn't have the discipline as a country, as adults, because we 
had such horrific leadership from the top, we did not do what 
we needed to do. So, we need to open, and we need to close that 
digital divide.
    So, you know, the idea that children can only learn, you 
know, five days a week, six hours a day, in a physical 
building, that doesn't make any sense. Kids should be able to 
learn anything they want anytime, anywhere, anyplace.
    Ms. Waters. Well, let me just say that I met with 
Superintendent Beutner for the Greater Los Angeles area, LAUSD, 
and he was talking about our Title I students, how Title I 
students we know are poor. They have dysfunctional families, 
whatever, what have you. And he said, if he had $350 million 
for the state of California to ensure that they have the 
technology, the supplies, and the ability to do distance 
learning, he believes that we certainly could do learning with 
them. We should not allow them to be dropped off of the agenda.
    Do you think we should pay special attention to those 
children whose parents have not been able to afford the 
computers, and we need the broadband and all of that for them 
to be able to participate in distance learning? Do you think 
that we can direct the money directly to those students like 
title I students?
    Mr. Duncan. We have to do that, and what this pandemic has 
done, what the murder of George Floyd has done is it's just 
slapped us all in the face at these massive, long-standing, 
systemic inequities that have existed forever, and now, as a 
country, we can't hide from them. So, making sure that 
children--every child has access, not just to a computer, but 
to the internet, to Wi-Fi, that should be as ubiquitous now as 
water, electricity, making sure those families have access so 
that kids can learn anything they want anytime, anywhere, 
anyplace, find their path and find their
    [inaudible]. We have to do that. We should have done it 
before, but we have to do it now.
    Let me just say what troubles me so much is districts like 
L.A. are----
    Ms. Waters. My time is up, but I want for them to know that 
I like what he's talking about with tutoring and teaching one 
and two and three kids in a community. I'm going to get in 
touch with him and talk with him about that some more. I wish 
we had more time.
    Thank you very much.
    Chairman Clyburn. Thank you. The chair now recognizes Mr. 
Luetkemeyer for five minutes.
    Mr. Luetkemeyer. Thank you, Mr. Chairman.
    And, just to followup on last week's hearing, in that 
hearing, I had a long discussion with Dr. Redfield with regards 
to the incorrect coding of individuals' deaths so that there 
was an overstatement of deaths due to corona, which was a 
followup to a previous question I asked of Dr. or Admiral 
Giroir in a previous hearing, and, as--and we found out two 
more states now are actually looking into this as well, and we 
are--we have sent a letter--I think I sent a copy of it to 
you--requesting information from both Dr. Redfield and the 
admiral with regards to what they're going to be doing about 
it. So, just to give you a heads-up.
    Mr. Lips, I just want to talk to you just a second with 
regards to something that Dr. Redfield said last week. He said: 
I want to reemphasize here, because I don't think I can 
emphasize it enough, as the Director of the Centers for Disease 
Control, the leading public health agency in the world, it is 
in the public health interest to these K-12 students to get 
those students back open to face-to-face learning. We have to 
be honest that the public health interests of students in this 
Nation right now is to get a quality education in face-to-face 
learning.
    I--from your previous statements, I assume you agree with 
that statement, Mr. Lips?
    Mr. Lips. I do. I think that that should certainly be the 
goal. We should be doing everything we can to get children back 
into school in a safe manner, and we should be giving 
flexibility to parents and teachers and school personnel to 
make decisions about risk, to create the best circumstance for 
our local communities. But certainly, the goal should be to 
trying to get kids back in school. These prolonged school 
closures are devastating for children, particularly for low-
income children, who are--we know are falling further and 
further behind every day that schools remain closed.
    So, we've seen public health guidance from the American 
Academy of Pediatrics, the CDC, of best practices that can be 
used to reopen schools. Wherever possible, schools should think 
creatively about following those guidelines to bring kids back 
into the classroom.
    Mr. Luetkemeyer. Well, I know that there is a paper put out 
by the CDC that is very extensive, eight pages here, and it 
deals with everything from comparing this--the COVID to the 
flu, harmful learning aspects that, if we don't go back to 
school, with regards to losing past education, how they fall 
backward, and then the digital way--the virtual way of 
learning, while it can get you by, it's not a very efficient 
way of doing it; the social and emotional skill development 
that is not there; the safety, which I think you mentioned--
you're one of the few people who mentioned safety today; 
nutrition; physical activity. These are all important things 
that I think we need to consider when you start taking a look 
at--and this is why the professionals have all said that we 
need to go back to school.
    With that in mind, Secretary Duncan, in May 2009, during a 
spring H1N1 outbreak, the outbreak that killed 358 children 
between April and October of that year, you said to the school 
superintendents and principals, I quote: I urge you to take 
your queues from public health officials in your area, in your 
state, and at the Centers for Disease Control and Prevention.
    But this time around seems different. Last Friday, in this 
committee, CDC Director Redfield testified and confirmed an 
urgent needing to get students back to school. As I've 
indicated with this report, it's very extensive. It deals with 
all of the myriad of issues there.
    But, however, the following day, you tweeted: Why are we 
asking 15,000 school districts and 100,000 schools to figure 
this out by themselves?
    So, my question is, why is it acceptable for 
superintendents to rely on public health officials when you 
were Secretary, but not now?
    Mr. Duncan. You know, they need to absolutely rely on that. 
And what the challenge has been, at the Federal level, there 
hasn't been a plan, there hasn't been investment, we haven't 
done what we needed to do for the previous four or five months 
to make this possible, and now we have a thousand people dying 
per day of COVID-19.
    Mr. Luetkemeyer. Let me stop you right there, and let me 
put some more facts on the table here. This was a brand new 
disease we knew nothing about. As of January 1, it was a clean 
slate. We never heard about the coronavirus.
    Now, over the last several months, we continue to develop 
plans and strategies as new evidence comes out, as new 
information comes out. And I think, last week, we saw in our 
committee, Ranking Member Scalise had a stack of papers about 
18 inches tall that were different plans that were in place to 
try and address many of those things.
    So, I think that that argument rings pretty hollow whenever 
you look at the bulk of evidence that's there to show that 
there are plans, that we are trying to be flexible and continue 
to improve and address issues as they pop up, and this is an 
ongoing thing, and we have to manage this virus.
    This is why I think, you know, as we go through and we have 
schools open up--in my area, it's not unusual to have a school 
close down for a day or two or three with the flu because as it 
runs through the community. I would anticipate that same thing 
happening here. As the COVID runs through the community, go 
down for a period of a week or so and come back up. I think we 
can manage this thing, and we just have to learn to do that.
    So, with that, I yield back to the chairman.
    Chairman Clyburn. I thank the gentleman for yielding back.
    The chair now recognizes Mrs. Maloney for five minutes.
    Mrs. Maloney. Can you hear me?
    Thank you, Mr. Chairman.
    Can you hear me? I can't hear him.
    Chairman Clyburn. I do hear you, Ms. Maloney.
    Mrs. Maloney. OK. Great. Great. I couldn't hear you for a 
while.
    The evidence shows that children catch coronavirus, and 
they spread it to adults, including teachers, bus drivers, 
cafeteria workers, parents, and grandparents.
    Just last Friday, the CDC released a report about a 
coronavirus outbreak at a Georgia summer camp. Three quarters 
of the campers tested positive. Children under 10 got the virus 
at higher rates than older kids and adults.
    This is not just an isolated incident. The American 
Association of Pediatrics reports that more than 338,000--
100,000 children have tested positive for coronavirus.
    Secretary Duncan, you coauthored an article with one former 
Education Secretary and one former head of CDC that identified 
eight basic steps to reopen schools. In that article, you 
stated, and I quote, ``Despite precautions, there will 
inevitably be coronavirus cases at schools,'' end quote.
    So, the distinguished Mr. Secretary, thank you for joining 
us once again. Why are you so sure that there will be 
additional coronavirus cases if we fully reopen all schools?
    Mr. Duncan. First, I'll just say both education and 
fighting pandemic, there is nothing partisan about this. This 
is all bipartisan. We all care about kids. We should all care 
about our--the health and safety of our children, their 
education, and the adults.
    I was very pleased to be able do that with Dr. Frieden and 
with my predecessor, Margaret Spellings, who happened to be 
Republican. We've done a lot of really important work together.
    Unfortunately, our schools are not islands. They don't have 
bubbles wrapped around them. Our schools reflect our 
communities, and as we have seen across the country, as schools 
have tried to start to reopen in the past week or two, in some 
cases, they've had cases of the coronavirus literally on the 
first day that they opened.
    And the best thing--as I said in my oral testimony, the 
best thing we can do to keep our children, our teachers, our 
parents safe is to beat down the percent of cases in our 
communities.
    Superintendent Runcie desperately wants to open schools. 
There is nothing in it for him not to open schools. He can't 
afford to do it because it is not safe for his community 
because his community has not done the right thing over the 
past four or five months. We have lacked discipline. We have 
lacked the willingness to listen to science. We have lacked the 
willingness to invest in our communities. We have not socially 
distanced. Instead, we have chosen to open bars rather than to 
be able to start school on time.
    So, we will continue to have cases. Our goal should be to 
minimize that. Then we have to do all the things that we know--
we have to test. We have to have accurate tests. They have to 
be reliable. We have to get them back fast. We have to contact 
trace. We have to isolate.
    And the worst thing in the world for me would be if we open 
prematurely, not thoughtfully, open for two or three weeks and 
have to shut everything back down. It just further traumatizes 
children, endangers adults--you know, endangers teachers, 
endangers parents. We should open very slowly, very gradually, 
very carefully, with the goal of not being to open, but to stay 
open.
    Mrs. Maloney. Thank you. And, now that some schools have 
started, we know that you're absolutely right. In fact, one 
Indiana junior high school was notified of a student COVID case 
just a few hours into the very first school day of the year. 
This school had to use its emergency protocol and order some 
students to quarantine on day one.
    You also wrote, and I quote, ``All contacts of new cases 
must be traced and quarantined,'' end quote. If the government 
does not provide support for testing, tracing, and containment, 
can we really expect schools to be able to stay open in 
communities where the virus is present?
    Mr. Duncan. Let me be really clear. If we can't test 
accurately and quickly and get those results back, if we can't 
contact trace, if we can't quarantine, we cannot open schools. 
It is not safe to do that. And that's a recipe not just for 
disaster but for death. So, for us to open, for us to stay 
open, for me, that's a prerequisite. We have to be able to 
test, to contact trace, to quarantine, and socially isolate--
self-isolate.
    Absent that, we cannot entertain the conversation of 
opening in person.
    Mrs. Maloney. Thank you very much.
    Dr. Rivers, as a former teacher, I loved your explanation 
of how schools and all the different facets of how they serve 
society, but I want to talk to you about what we've seen in 
other countries, that they've reopened schools during the 
pandemic. I understand that some countries have done very well, 
but others have experienced massive new outbreaks.
    What factors, in your opinion, whether a country was able 
to be safely to open and sustain that reopened school, and what 
lessons does that hold for the United States? What impacted 
whether you could safely open and sustain it and other schools 
were not able to do that?
    Ms. Rivers. I think the two major factors are the 
background prevalence of disease in the community and 
mitigation measures. Places that have a lot of virus 
circulating will have difficulty remaining open safely, even 
with good mitigation measures, because there is the potential 
to have so many introductions of cases into the schools that it 
becomes difficult to control even with their own mitigation 
measures.
    But for places that do have moderate or mild levels of 
community transmission, if they're able to put in place things 
like social distancing, universal masking, hand hygiene, maybe 
pods or cohorts, that will improve the probability that 
classrooms can stay open with onward transmission.
    Mrs. Maloney. Thank you. My time has expired.
    Chairman Clyburn. The chair now recognizes Mr. Green for 
five minutes.
    Mr. Green, you're now recognized for five minutes. Not 
here? Where is he?
    Mrs. Maloney. Chairman Clyburn?
    Chairman Clyburn. Mr. Green, can you hear me?
    Mrs. Maloney. Chairman Clyburn?
    Mr. Green. Are you talking to me, sir?
    Chairman Clyburn. Mr. Green, yes. We had some malfunction 
here.
    Mr. Green. Can you hear me OK now?
    Chairman Clyburn. Yes, sir.
    Mr. Green. Is it my turn to go? Is that what you're saying?
    Chairman Clyburn. Yes. Yes, sir. You're now recognized for 
five minutes.
    Mr. Green. OK. Thank you very much.
    Thank you, Chairman and Ranking Member and our witnesses. I 
want to first address an issue of concern to me, the handling 
of positive COVID tests and death reporting. From some 
estimates, the Federal Government has been reimbursing 
healthcare providers anywhere between $5,000 to $39,000 
depending on the severity of the case, and that is providers 
get a 20-percent add-on payment for Medicare and COVID-19 
patients over non-COVID patients.
    Clearly, there is a financial incentive to report, if not 
inflate, COVID cases. The Democrat Governor of Colorado 
retroactively lowered their fatality count due to 
inconsistencies by 12 percent. Cause of death after a motor 
vehicle trauma that sudden death listed as COVID is not proper. 
If it's just 10 percent inflated nationally, that's 15,000-plus 
cases getting the extra 20 percent where it's not warranted. It 
also affects the number upon which important decisions are 
made.
    And I'd like to take this opportunity to ask the chairman 
to request that the GAO conduct an audit of every single COVID 
death, how the reimbursement payments worked, how exactly the 
amounts are determined, the extent to which waste, fraud, and 
abuse may be occurring. This study would be extremely helpful 
to Congress and how we can protect taxpayer dollars and direct 
relief to legitimate causes.
    Now on to the topic of sending kids back to schools. I 
believe we must listen to the experts. The CDC says, quote, 
``The best available evidence indicates, if children become 
infected, they are far less likely to suffer severe symptoms,'' 
end quote.
    The CDC advised that, quote, ``Aside from a child's home, 
no other setting has more influence on a child's health and 
well-being than their school,'' end quote. Let me note that 
children account for less than seven percent of U.S. cases, 
less than 0.1 percent of deaths, and almost all of those have 
confounding medical variables.
    In other testimony before the Oversight Committee, Dr. 
Redfield said 7.1 million children get nutritional, behavioral 
health counseling from school. Adolescent suicides are on the 
rise. Chide abuse is on the rise, and schools and teachers are 
typically the first to report it.
    Dr. Redfield even said: This is not public health versus 
the economy. For the children, it's public health decision 
versus a public health decision. Let's open the schools.
    That's what he said.
    As a physician, I'm keenly aware of the risk-benefit 
decisions. Often, we prescribe medications with significant, 
even deadly, side effects. But we weigh the benefits of the 
drug with those risks, and we make the decision, many times to 
give the drug, because the chance of good--a good outcome 
outweighs the chance of a bad. I promise you, everyone 
listening to me has done just that. Motrin causes gastric 
ulcers, and aspirin toxicity can kill.
    Dr. Redfield from the CDC was clear. The risks to students 
being out of school, risks to their nutritional health, risk of 
suicide, risk of a child abuse, loss of mental health 
counseling, loss of school nurses providing a degree of health 
that they can't get at home, all will produce far greater harm 
to our children than will be harmed by COVID-19. It's not even 
close.
    On the other hand, the argument for adults, 33,800 
additional dead from undiagnosed cancers, additional 77,000 
suicides, the massive increases in out-of-hospital cardiac 
arrests may or may not balance those lost due to COVID. So, for 
adults, the risk-benefit ratio is harder to make; I completely 
agree.
    But, in children, that risk-benefit ratio is undeniable and 
undebatable. If we do not open our schools, we will do far more 
harm to children than we ever would letting them return to the 
classroom with social distancing, et cetera, and while 
protecting at-risk students and teachers.
    One witness today stated that we had lost over 400 children 
to COVID-19, all of which are tragedies. The witness mentioned 
that we should act to save just one life, or, in other words, 
we should close the entire Nation's schools to save one life.
    If we followed that logic, we will never allow a single 
child to ride in an automobile. Last year, 4,074 children died 
in automobile accidents. If my math skills served me well, 
that's 10 times more than died with--to COVID. Should we stop 
all children from riding in cars? No. As a physician, I firmly 
believe the right decision is to reopen our schools. The risk-
benefit ratio is right there.
    Now I'd like to make one more point. Nowhere in the 
Constitution of the United States does it give the Federal 
Government a right to tell Tennessee whether we can open our 
schools. This whole discussion is Federal Government overreach. 
Tennessee is quite competent enough to make this decision on 
its own. We need to stay out of Tennessee and our other states 
making this decision.
    Thank you, Mr. Chairman.
    With that, I yield.
    Chairman Clyburn. Thank you for yielding.
    Now, I might add, as I--before recognizing Mr. Foster, let 
the chair recognize Mrs. Maloney for a UC, unanimous consent, 
request.
    Mrs. Maloney. Thank you so much, Mr. Chairman.
    I have a unanimous consent request. I seek unanimous 
consent to enter into the record the following 21 documents 
detailing cases of COVID across 19 states contracted or 
transmitted at childcare facilities, camps, or schools this 
summer. Included among these outbreaks are fourth graders and 
their teachers at one location of a network of for-profit 
schools in North Carolina, where Secretary DeVos and Vice 
President Pence visited without wearing masks just last week.
    Here are the documents. May I put them in the record, 
please?
    Chairman Clyburn. Without objection, so ordered.
    Chairman Clyburn. I think you submitted them in advance, 
and I thank you for doing that.
    Mrs. Maloney. Thank you. Thank you.
    Chairman Clyburn. The chair now recognizes Mr. Foster for 
five minutes.
    Mr. Foster. Thank you. And thank you to all our witnesses 
testifying today.
    As you all spoke about, while teachers, students, and 
parents would ideally like to return to school as soon as 
possible, many school districts are not in a place right now to 
safely reopen schools for in-person learning.
    As a scientist, I think it's important to--for people to 
remember that just because people wish that something were true 
does not mean that science says it will be true. Science will 
never tell you that there is a safe way to detonate a nuclear 
bomb in your backyard, and they will--or that there is some 
magic device available today that will allow you to safely open 
schools in areas where there is a high level of community 
spread with no prompt testing available.
    The CDC has issued guidance that schools should continue 
remote learning until the number of positive coronavirus cases 
drastically decreases below levels we're seeing today, or we 
have a vaccine.
    Dr. Rivers, in a National Academy of Science report that 
you coauthored, you discuss that, in order to meet these 
benchmarks to safely reopen, schools will need to implement a 
long list of mitigation strategies, including wearing masks, 
hand washing, physical distancing, eliminating large 
gatherings, creating cohorts, cleaning, ventilation, air 
filtering, and temperature and symptom screening.
    So, how important is it to these strategies to reduce 
transmission of the virus when a school reopens? Can 
communities, for example, pick and choose which ones they will 
comply with and still safely open their schools?
    Ms. Rivers. My recommendation is that schools should 
implement as many of these as possible, particularly if they 
have high levels of virus in the community. Places that don't 
have a lot of virus circulating may be able to scale back the 
mitigation measures, but in places that do have many new cases, 
it will be important to be vigilant about implementing these 
measures.
    Mr. Foster. So, are there any examples of any countries 
anywhere who have successfully opened schools and kept them 
open with the level of community spread that we're now seeing 
in many areas of the Southern United States?
    Ms. Rivers. I don't think there are many examples worldwide 
of places that have as much outbreak, as much virus as we have, 
and so I don't have any examples of schools reopening that have 
been able to do that successfully.
    There have been a number of countries that have reopened 
where reopening has not gone well. In Israel, for example, 
schools were reopened in May, and that led to the acceleration 
of the outbreak in the community, and so they had to close down 
again. I think that's a cautionary tale for what may happen if 
you do reopen when there is a lot of virus circulating.
    Mr. Foster. Thank you.
    Secretary Duncan, what enforceable policies can be put into 
place so that all students, teachers, administrators, and other 
school employees can follow the CDC safety guidelines about 
wearing face coverings, maintaining social distancing, washing 
hands, and so on, and, in particular, how do you enforce these 
guidelines? You know, how do you detect violations, and how do 
you respond when violations are detected?
    Mr. Duncan. Yes. I think there are a number of things that 
don't--aren't 100 percent guaranteed for success but at least 
gives you a chance to try and keep people safe, and you just 
touched on a lot of them, Congressman. It's good to see you 
again.
    You know, first, obviously, the social distancing is 
absolutely critical. That has to happen. You know, that's a 
hard thing for, you know, four-year-olds, six-year-olds, eight-
year-olds to not play tag or not do whatever, but we have to 
establish new norms there.
    The masks are a must, a mandatory thing. You're going to 
see things around--you know, Plexiglass shields around desks or 
maybe in front of the teachers' desks, but I just want to, you 
know, elaborate on just the complexity of this? How do we keep, 
you know, bathrooms clean? How do we change walking in terms of 
hallways? How do we think very differently about buses and 
transportation? How do we think differently about delivering 
food?
    All of these things are really hard, and I think what we 
have to rely on are our teachers and principals leading by 
example, and then, if--you know, if students don't do it or 
teachers don't do it, that principal, that, you know, 
accountable, responsible adult at the building, just as now, 
you know, people who go on airlines and aren't wearing masks 
are asked to leave, unfortunately we're going to have to do 
those types of things in schools if we're concerned about 
everybody's safety, not just the children, but the staff and 
parents and grandparents at home.
    Mr. Foster. Yes. I'd like to ask quickly about just how 
prompt the testing has to be to be useful. Last week, the 
committee heard from Admiral Giroir that over 40 percent of the 
tests that we're seeing nationwide take more than three days to 
get results, while Dr. Fauci testified that waiting multiple 
days for a test result is not good enough, and I think, quote, 
in many respects, obviates the whole purpose.
    So, you know, for example, professional sports teams or 
those visiting the White House, you know, are tested promptly, 
and they get the results quickly.
    So, Dr. Rivers, is this level of testing realistically 
going to be available in most school districts, and what are 
the implications if the testing takes longer?
    Ms. Rivers. I think the first goal is to have test results 
returned within 48 hours, and the second goal is within 24 
hours. And that's to enable the isolation, the contact tracing, 
and the quarantine that allows us to break trains of 
transmission. If we don't have those capabilities in place, it 
becomes very hard to get ahead of the outbreak, and we see a 
lot more virus circulating, and we'll have a lot more 
difficulty maintaining or regaining control.
    Mr. Foster. Thank you.
    I'm out of time and yield back.
    Chairman Clyburn. I thank the gentleman for yielding back.
    The chair now recognizes Mr. Raskin.
    Mr. Raskin. Thank you very much, Mr. Chairman.
    As Secretary Duncan observed, we're in this agonizing 
situation because of the miserable failure of the 
administration to develop an effective national strategy to 
defeat COVID-19. And I say defeat it. I don't say limit it, 
manage it, contain it, and all of these other euphemisms for 
passivity, but we don't have a strategy to defeat the disease.
    Now, all of the dads and moms in the country want our kids 
to go back to school. Students want to learn together. Teachers 
want to teach in the classroom. And everybody agrees that in-
person instruction is better than online instruction. That's 
not the question. If that were the question, it would be easy. 
We would just say go back and do it.
    But nobody knows whether it's safe today or what is safe 
and how to make it safe under these conditions of chaos. This 
is a time when America leads the world in case counts. America 
leads the world in death count. 338,000 children have 
contracted the disease and been infected by it, and COVID-19 is 
spiraling out of control in many parts of the country, and we 
get from the administration nothing but confusion, 
disinformation, and quack miracle cures coming from the highest 
levels.
    Now, given the refusal or the inability of the 
administration to create an effective nationwide strategy to 
defeat the disease, these decisions must be made at the state 
and local level, not by random heckling of local governments.
    I'm amazed that our distinguished colleague, Mr. Green, 
rails against the Federal threat to local decisionmaking here 
when it is precisely President Trump who is trying to dictate 
to state and local governments all over the country that 
everybody has to go back 100 percent according to his 
specifications, even when the private schools that his 
Cabinet's--Cabinet members' kids go to are all doing it online 
or some mixed version of online instruction and in person.
    So, federalism is on the side of the majority here. It's 
the administration that is defeating the values of federalism 
by trying to use money as a threat to force people to meet the 
will of the President.
    Now, Mr. Runcie, six weeks before the fall back-to-school 
period, 210 of your teachers and contractors in Broward County 
schools tested positive for COVID-19, representing 138 
different school campuses.
    Can you explain what happens concretely if a teacher or 
student gets sick in a classroom of 25 students and one or two 
teachers? What happens from there, and what does that do to the 
entire school environment?
    Mr. Runcie. Well, that's certainly--thank you, Congressman, 
for the question.
    That's certainly going to cause some major disruption. We 
require everyone to self-report. We would then have to isolate 
the individuals. They would have to go under, you know, 
quarantine. They can't come back until they get tested, two 
negative tests. So, they would be out for at least a couple of 
weeks.
    We then have to go trace and identify everyone who has been 
in direct contact as well as indirect contact and establish 
protocols for them to quarantine or be able to monitor 
themselves.
    If it's limited to one particular classroom, we could find 
a way to obviously deal with that. If we see other cases that 
materialize in the school, then you're looking at a situation 
where you may need to shut down the entire school and then, you 
know, clean and then potentially come back.
    So, it's an enormously disruptive situation, and I'll tell 
you that a large part of it, you just have one case in a 
school, it's going to create a climate of fear that makes it 
difficult to have a reasonable learning environment, right? So, 
we really need to take that into account, that what happens in 
the school and the climate that's created when you have that.
    Mr. Raskin. Thank you so much.
    Ms. Skillings, we're very sorry about the loss of your 
colleague and your friend to COVID-19.
    Can you tell us what the impact of this tragic loss was on 
her students and then the rest of the school body and the 
teachers in terms of thinking about what to do with respect to 
returning in the fall?
    Is----
    Chairman Clyburn. Ms. Skillings?
    I don't think Ms. Skillings--Ms. Skillings, can you hear?
    Ms. Skillings. That's for me?
    Mr. Raskin. Yes, that's for you.
    Ms. Skillings. Can you hear me OK?
    Chairman Clyburn. Yes, we can hear you.
    Ms. Skillings. I cannot hear any of you. I have a friend 
who is live streaming and letting me hear her through her cell 
phone.
    I can tell you that, in our community, the parents have 
expressed that the students are feeling a lot of stress with 
the loss of our colleague. Yesterday, many of them got her 
letter from the end of the year with a poem with their names on 
it, and a parent shared on social media their students crying 
and reading the heartfelt poem that she wrote for each 
individual student.
    As for former students, I have had former students call me 
and express how it is hard for them at the loss of a teacher 
that they all have come to love and admire. So, many of them 
have gone into education because of being in her classroom.
    As for the teachers and our staff, we have been devastated. 
It is the hardest thing to go through the loss of someone who 
you are so close to.
    We have a very low teacher turnover. Teachers are here to 
stay because we come from this community, and we stay in our 
community and dedicate ourselves to this family.
    Chairman Clyburn. The gentleman's time has expired.
    Mr. Raskin. Thank you.
    And, Secretary Duncan, what would it mean for schools 
across America----
    Ms. Skillings. You're behind, Jena, so I don't hear.
    Mr. Raskin. I'm sorry. What would it mean----
    Chairman Clyburn. Mr.----
    Mr. Raskin [continuing]. for schools across America if they 
decide quickly to reopen in the fall and then large groups of 
teachers----
    Chairman Clyburn. Mr. Raskin?
    Mr. Raskin [continuing]. staff, and students get sick----
    Chairman Clyburn. Mr. Raskin?
    Mr. Raskin. Yes?
    Chairman Clyburn. Your time has expired.
    Mr. Raskin. Ah, OK.
    Chairman Clyburn. You are recognized. Do you have a request 
to make?
    Mr. Raskin. I would like to submit for the record a letter 
from the National Education Association on behalf of its 3 
million members to the committee.
    Chairman Clyburn. Thanks for submitting that in advance, 
and, without objection, it will be entered into the record.
    Chairman Clyburn. And, with that, Mr. Kim is recognized for 
five minutes.
    Mr. Kim. Thank you, Chairman, and thank you to all the 
witnesses for joining us here today.
    As a father of two boys, I know firsthand what worried 
parents are feeling as they're getting their kids ready for 
this next upcoming year, and what we all want to do is do 
everything right for our kids, make sure that we are taking 
care of them, and making sure that they are safe.
    What we owe the American people coming from Congress, 
coming from our government, is to talk straight about the 
challenges that we face, and make sure there is no 
misrepresentation, no way that we're trying to skew facts or 
other assessments here, and that's why I find it so frustrating 
that, in the last several hearings, I continue to hear 
colleagues of mine cite the American Academy of Pediatrics to 
support their arguments.
    Given how much time they cite the American Academy of 
Pediatrics, I wonder if they actually took some time to be able 
to just pick up the phone and call them and talk to them about 
their perspective because I did that just yesterday. I called 
the American Academy of Pediatrics and talked to them, and what 
I heard from them was a crystal-clear frustration on their part 
by having the Trump administration misrepresenting their 
position and using them as a political prop. And that's 
something that we just need to make sure we get past because 
they have also spoken out publicly about this, saying that the 
original guidance of theirs was, quote, misrepresented and 
misunderstood.
    So, let's just stop this and make sure that we have a 
discussion straight with the American people and talking 
through what it is that we need to do to get our kids an 
education and to keep them safe.
    I personally believe that there is a common-ground approach 
to this that a lot of Americans understand. I think both 
Republicans and Democrats both believe that in-person education 
would be best if we're able to achieve that with the health 
conditions that we face.
    I also believe that most Americans, Republicans and 
Democrats, believe that science and medical expertise should 
play a key role in making these decisions, and that the health 
of students, teachers, and education support professionals need 
to be high in the mind as we're making these critical decisions 
going forward.
    I also believe that many of us agree that there is no one-
size-fits-all solution across this country and that states and 
local communities should be able to make these decisions. I 
agree that--I also believe that Republicans and Democrats 
agree--and I hope they agree--that we should be prepared to 
provide significant support and funding to our schools to be 
able to achieve this.
    That's why I get so frustrated when I continue to see 
comments coming from the President to other elected leaders 
that are saying otherwise, so I wanted to--just yesterday, I 
saw an interview on Fox News, the President told the American 
people, quote, we're set to rock and roll, but the big problem 
we have is Democrats don't want to open their schools because 
they think it's going to hurt the elections for the 
Republicans.
    Mr. Runcie, I wanted to direct this one to you: From your 
perspective, is there any truth to the President's claim that 
school districts are not opening up for political reasons?
    Mr. Runcie. Absolutely not. I can tell you that my school 
board, this administration, our entire community has been 
working day and night, seven days a week, trying to figure out 
how we can open schools, and our intent, as with the planning 
that we started last spring, was to get to a point where we 
could at least do a hybrid, right, where we have some days in 
school, some days online where we could execute CDC guidelines. 
That's not feasible, again, because of what's going on in the 
community. Our schools are connected to that.
    The other thing I would say is that, look, our buildings, 
they may be closed, but education is still open. We spent the 
entire summer training and training our teachers with a laser 
white focus to make sure that the online experience, the 
eLearning that is going to be delivered, is going to be 
substantially different, and so we put a number of things in 
place, in addition to training, to make sure that they're 
effective, they can engage their students.
    We've also created two different schedules for our 
elementary so that there is a morning session and there is an 
afternoon-evening session for K-5 to accommodate parents who 
may have to work or may not be there to support their youngest 
learners.
    We were talking about tutoring earlier. At our secondary 
level, we are creating what some may call, you know, homework 
hotline, but it's after-school support, where there is going to 
actually be an educator that's certified and available to help 
students in core subject areas or their families now be 
available between 3 to 9 o'clock. That's something that we'll 
probably retain going beyond this pandemic, and so----
    Mr. Kim. Look, I really appreciate that, and the 
thoughtfulness that you've put into this really comes across, 
and I've talked to a lot of school districts in my own 
district, and none of them are looking at this through the 
local lens. Enough is enough, and we need to make sure that 
we're getting our kids the education that they need, and we 
don't need to have that politics as a part of that. And any 
assessment or any statement that accuses our education 
officials across this country of doing so is just flat-out 
wrong.
    So, Mr. Chairman, I want to turn back to you and just 
continue our work to try to come across and build this common-
ground approach to be able to get our kids an education safely 
and responsibly.
    Thank you so much.
    Chairman Clyburn. Thank you, Mr. Kim, and thanks to all of 
you for your participation here today.
    Let me thank all the panelists. And, at this point, I am 
ready to yield to the ranking member for a closing statement, 
but I can't see him. Under the rules, I've got to be able to 
see him. I don't know if he's still with us.
    Mr. Luetkemeyer. Mr. Chairman, the ranking member had to 
step off. He's got another event to attend, and I have been 
volunteered to close for him, if that's OK?
    Chairman Clyburn. Absolutely. I now yield to you for that 
purpose.
    Mr. Luetkemeyer. Thank you, Mr. Chairman, and thank all our 
witnesses. It's been a great hearing today, and, you know, the 
title of the hearing was ``Challenges to Safely Reopening K-12 
Schools.'' And I think we all thoroughly vetted the problems 
that we see.
    There's concerns obviously for many in many different ways, 
and I just want to go through some of the things here that I--
you know, the scientists and the pediatricians that we rely on 
for the scientific and the data to show that we can do this 
safely are all recommending this, whether it's Dr. Fauci, Dr. 
Redfield at the CDC, the academy of pediatricians, they all 
have guidelines. They all have plans on how we can do this 
safely.
    You know, throughout this situation, we've talked about the 
health risks, and there is no doubt there are some health 
risks. But, again, in the paper I showed earlier of the CDC, 
they discuss very thoroughly the health risks with regards to 
the common flu, how your children are more at risk of the flu 
than they are of the COVID. In our state of Missouri, we lost 
more people to the flu than we have COVID.
    So, I think perspective is needed here to be able to 
understand the risks that are involved, and I think the points 
have been made a couple different times that it's up to local 
officials to make those decisions based on their science and 
the involvement that you have with the community and the 
medical community with regards to how COVID is progressing in 
your community. That needs to be paramount.
    Obviously, it's low risk with regards to children. It 
doesn't mean no risk, but there is very, very minimal risk. 
Science has shown that children under 18, there is a minimal 
risk to their being exposed to some learning issues that we 
have.
    The fourth thing I want to talk about here is, the system 
that we have in place, if we do the virtual learning--I admire 
the testimony today of the different folks talking about 
virtual learning. That's fine, but we've heard over and over 
again, even from the American Academy of Pediatricians, as well 
as the teachers unions--and I can read the statement from 
teachers unions: This past spring, unwanted--this spring's 
unwanted experiment has made clear what we had long known 
before the pandemic: remote learning cannot be a substitute for 
in-person learning. Eighty-six percent of our members--this is 
the teachers union now--said we believe the digital learning 
time this past spring was inadequate for their students.
    So, while it is a substitute and can get us by for a period 
of time, it is not a long-range strategy. We need to understand 
how we have to manage this disease so that we can get control 
of it, so we can get our kids in the classroom in any way 
that's possible.
    Other countries have done this--a lot of the countries 
include Austria, Denmark, Finland, Netherlands, Norway, 
Switzerland, Australia, New Zealand, and Singapore--have 
implemented different types of protocols in place that have 
helped the students be able to stay in school and learn that 
away.
    Then one of the things that we don't discuss very much that 
was mentioned a time or two today was the safety factor for 
kids. Last week, Dr. Redfield made the comment about how the 
opioid problems, the suicide problems are exacerbated by kids 
staying at home. The child abuse problem, there has been a 50 
percent drop in children being reported as being abused, yet 
the emergency rooms are being flooded by kids.
    So, there's a lot of things to consider here. Again, the 
challenges, as the title of this committee hearing was 
challenges to safely reopening our schools, it is great, but 
it's not something we can't overcome, and it's not something 
that we don't have a plan for, a plan that can be--that we can 
be flexible enough to be able to be changed as we know more 
about the disease, and as we learn better processes and 
procedures.
    So, with that, Mr. Chairman, thank you so much for the 
opportunity to close and to also our guests today for their 
testimony.
    I yield back.
    Chairman Clyburn. Thank you very much for yielding back the 
time.
    Before I make my closing statement, let me briefly address 
the repeated claims that have been made that public health 
experts are recommending reopening all schools for in-person 
learning.
    The truth is the President's public health advisors have 
made clear that reopening schools is especially risky in 
communities where the coronavirus is spreading at a high rate.
    Dr. Redfield, the CDC Director, said--and I quote--in areas 
where there are hotspots, remote and distance learning may need 
to be adopted for some amount of time.
    And Dr. Deborah Birx, coordinator of the White House 
Coronavirus Task Force, explained--and I quote--if you have 
high caseload and active community spread, just like we're 
asking people not to go to bars, not to have household parties, 
not to create large spreading events, we're asking people to 
distance learn at this moment so we can get this epidemic under 
control.
    So, the experts are unanimous: Further reopening schools in 
virus hotspots is extraordinarily risky.
    Now, as I close, I want to thank all of our guests here 
today, and I want to say that your remarks have been very 
powerful.
    Superintendent Runcie, I know you are starting school for 
270,000 students and 30,000 staffs in about two weeks. Everyone 
here wishes you and your colleagues across the country the very 
best as you shepherd students and families through a very 
challenging school year.
    Ms. Skillings, I want to express again my condolences for 
the loss of your colleague. I am hopeful that your testimony 
today will help others understand the risks faced by teachers 
and staff. Absolutely everyone on both sides of the aisle 
recognizes how important it is to reopen schools.
    I'll say it again: We all want schools to open, and we want 
them--our students to thrive. But this cannot come at the cost 
of lives. Not attending school in person causes harms that are 
not to be taken lightly, but there are ways to at least 
partially mitigate these harms.
    There is no way to bring a parent, a teacher, or a child 
back to life once they've died from this virus. I was 
particularly interested in Dr. Green's comments about his state 
of Tennessee. He has pleaded for us to listen to the people of 
Tennessee.
    Well, we are. That's exactly what everybody's been saying 
here today. But what we're hearing is that, irrespective of 
what may be going on in your state, if you don't reopen 
schools, we're going to cutoff funds.
    That's not coming from anybody on this panel. Mr. Lee, I 
believe--we heard from Mr. Lips. He has repeated the word 
``flexibility'' several times. That flexibility, it seems to 
me, has got to be throughout the system. Flexibility has got to 
be there for local school districts. And when it is determined 
by the school district that there is too wide a spread in this 
community for us to have in-school learning, they ought not 
have their funds cut off; they ought to have more funds coming 
in order to have online learning. And for some strange reason, 
no one has talked here today about the heating and air 
conditioning units.
    To me, when there is an outbreak, we could talk about 
cleaning things up. If this virus gets into a school maybe from 
three or four children and they've got a faulty HVAC system, it 
seems to me that we ought to be giving them the funds that's 
necessary to repair that system, not take the funds away for 
not opening the schools.
    So, let me just say that I, as a former public school 
teacher, I recognize that children can catch and spread the 
viruses. I've been in the classroom with a flu outbreak. I also 
know how high-risk hotspots can be, and so this is why CDC must 
provide school districts with clear, science-based guidance 
about the risks of physically reopening schools.
    Second, we must take affirmative steps to control the 
spread of the virus in communities. This is going to require 
shared sacrifice. Some sacrifices are minor, like requiring 
everyone to wear masks. We need strong Federal leadership and a 
national plan to guide these choices, not wishful thinking.
    Finally, instead of illegal threats to cutoff Federal funds 
schools that follow public health guidance, we must provide 
school districts the funding and assistance they need to 
educate children safely. Regardless of whether a school opts to 
begin the school year remotely or in person, significant 
resources will be required for them to be flexible. Congress 
must allocate these resources.
    We have heard today about the struggle of remote learning 
for students and families, and especially heartbreaking are the 
challenges faced by children with special educational needs or 
mental health concerns and children in hard-hit communities 
already struggling with this pandemic.
    Families living in red zones will not benefit, however, 
from sending their children into unsafe schools. The only way 
we can provide real relief to these families is to take control 
of the pandemic as fast as we can.
    So, if my colleagues are serious about getting kids back to 
school safely, I want to ask them to join me in demanding 
Federal leadership to contain the coronavirus instead of 
wishing it will go away. As the President said, it won't go 
away. We have to make it go away.
    Our country failed to follow the science-based guidance for 
safe reopening provided by the select committee's first public 
briefing, and, as a result, more lives were lost; more 
livelihoods were destroyed; and, according to the CDC, we are 
not in a position where all of our schools can safely resume 
in-person operations.
    We must learn from these mistakes, not repeat them. Our 
children's futures are at stake.
    Before we close, I want to enter into the record a report 
of the American Federation of Teachers called ``Reopening 
Schools Safely,'' as well as a position statement of the 
American Speech-Language-Hearing Association and a letter they 
sent to Secretary DeVos.
    I ask unanimous consent for these materials to be entered 
into the record. So ordered.
    Chairman Clyburn. Now, without objection, all members will 
have five legislative days within which to submit additional 
written questions for the witnesses to the chair, which will be 
forwarded to the witnesses for their response.
    I ask our witnesses to please respond as promptly as you 
are able to.
    This meeting is hereby adjourned.
    [Whereupon, at 4:14 p.m., the subcommittee was adjourned.]

                                 [all]
</pre></body></html>
